8/30/2021

Platinum Rewards Visa® Credit Card

HOME / LOANS & CREDIT / CREDIT

Platinum Rewards Visa® Credit Card
Our credit card has one low rate for everyone and no-fee balance transfers at any time
APPLY NOW

Call us at 800-341-9911 or visit an office

Get one of the best interest rates around with our Platinum Rewards Visa® Credit

Related Products

Card.

Members who have this

You can enjoy the ability to pay anywhere with Visa® and earn rewards with every
purchase.
Our credit card is fully compatible with digital wallets like Apple Pay™ and Google Pay™.
There are also no annual fees and no balance transfer fees.
It’s a smart way to spend that can even help keep your credit score healthy.

A Smarter Way To Spend
Earn points on purchases with uChoose Rewards®
No annual fee

often benefit from:


Checking Accounts



Personal Loans

Contact Us
Our team is ready to help
Full Name*

Email*

No balance transfer fee
2% or $25 minimum monthly payment

How can we help?

Free Tech Features
Apple Pay®, Google Play™, and Samsung Pay™ compatible*
Easier online ordering with Visa Secure Remote Commerce
Free online banking and mobile app

Credit Card Benefits
Extended warranty protection** and purchase security**
Travel and emergency assistance services^
https://www.rcu.org/loans-credit/credit/platinum-credit-card

reCAPTCHA
I'm not a robot
reC
Priva

Need help?
SUBMIT
Ask Val™!

1/4

8/30/2021

Platinum Rewards Visa® Credit Card

Roadside dispatch®^
The Royal Credit Union Platinum Rewards Visa® card includes ID Navigator Powered by
NortonLifeLock, providing tools so cardholders can act quickly if their identity is
threatened

Current Platinum Rewards Visa® Credit Card Rate
Product
Platinum Rewards Visa® Credit Card

APR1
7.75%

Monthly Payment
greater of 2% of balance or $25.00

APPLY NOW

Lost Or Stolen Card?
Learn what to do if your card is lost or stolen

Traveling Soon?
If you plan to travel outside your normal spending area, please help our fraud detection
team by letting us know using a travel memo.
Learn how to set a travel memo

Helpful Information
Get help making a payment, redeem your rewards, or try one of the calculators below.
See how to make a payment or redeem uChoose® rewards
Calculate how long will it take to pay off my credit card
Calculate how soon you can eliminate debt

Education & Resources

HELP & HOW TO
https://www.rcu.org/loans-credit/credit/platinum-credit-card

SAFETY

FINANCIAL EDUCATION
2/4

8/30/2021

Platinum Rewards Visa® Credit Card

About ID Navigator
Powered by
NortonLifeLock

Security & Fraud

5 Steps To Keep Your
Holiday Spending In
Check

* Apple and the Apple logo are trademarks of Apple Inc., registered in the U.S. and other Countries. Apple Pay is a trademark of Apple Inc.
Google Pay is a trademark of Google LLC.
Available on select Samsung devices, most major carriers and supported cards. See samsung.com/pay for complete list and contact your bank or
financial institution to verify supported cards.
** Certain terms, conditions and exclusions apply. In order for coverage to apply you must use your covered Visa card to secure transactions. Please
refer to your Guide to Benefits for more information.
^ Certain terms, conditions and exclusions apply. Please refer to your Guide to Benefits for more information.
1 APR=Annual Percentage Rate. APR is variable and based on Prime Rate as published in the Wall Street Journal, plus a margin. APR may change after
account opening. Rates current as of 4/16/20. Last changed on 4/16/20. Credit card subject to credit approval. Cash advance fee is 3% of transaction
amount with $10 minimum, $75 maximum; foreign transaction fee is up to 2%. No annual fee. Membership required and upon qualification. Refer to
our disclosures and service fees for more information.​

800-341-9911
Corporate Center:
200 Riverfront Terrace
Eau Claire, WI, 54703
Contact

Locations & ATMs

Royalty Offers

Checking & Savings

All Offices

Loans & Credit

Rates

Investments & Retirement

News

Business Banking

Careers

About Royal

Forms & Documents

Education & Resources

Schedule Appointment
Privacy Notice
Website Terms Of Use And Accessibility Statement
Routing# 291880411
Member Service Contact Center Hours:
Weekdays 8:30 A.M. - 7 P.M.

OPEN AN ACCOUNT

Saturdays 8:30 A.M. - 2 P.M.
Mail Payments To:
PO Box 970, Eau Claire

NEED A LOAN

WI 54702-0970



https://www.rcu.org/loans-credit/credit/platinum-credit-card

3/4

8/30/2021

Platinum Rewards Visa® Credit Card

Copyright © 2021 Royal Credit Union
Equal Housing Opportunity
Important notice regarding use of cookies: By continuing to use this site, you agree to our use of cookies as described in our Privacy
Policy.

https://www.rcu.org/loans-credit/credit/platinum-credit-card

4/4

